               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03651-42




    Combined Assessment Program 

             Review of the 

    El Paso VA Health Care System 

            El Paso, Texas 





January 15, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                          CAP Review of the El Paso VA Health Care System, El Paso, TX



                                              Glossary
                 CAP            Combined Assessment Program
                 EHR            electronic health record
                 EOC            environment of care
                 facility       El Paso VA Health Care System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PI             performance improvement
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                  CAP Review of the El Paso VA Health Care System, El Paso, TX



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishment........................................................................................                  2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Continuity of Care ................................................................................................... 8

  Moderate Sedation.................................................................................................. 9

  Suicide Prevention Safety Plans ............................................................................. 11


Appendixes
  A. Facility Profile ....................................................................................................      12

  B. Strategic Analytics for Improvement and Learning ............................................                              13

  C. VISN Director Comments ..................................................................................                  16

  D. Facility Director Comments ...............................................................................                 17

  E. OIG Contact and Staff Acknowledgments .........................................................                            20

  F. Report Distribution .............................................................................................          21

  G. Endnotes ...........................................................................................................       22





VA OIG Office of Healthcare Inspections
                                          CAP Review of the El Paso VA Health Care System, El Paso, TX



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
November 4, 2013.

Review Results: The review covered five activities. We made no recommendations
in the following three activities:

 Environment of Care

 Continuity of Care

 Suicide Prevention Safety Plans

The facility’s reported accomplishment was an audiology patient access systems
redesign project.

Recommendations: We made recommendations in the following two activities:
Quality Management: Ensure the Surgical Work Group meets monthly.

Moderate Sedation: Ensure pre-sedation assessment documentation includes a review
of the history of any previous adverse experience with sedation. Require that any
changes to informed consents are discussed with and approved by the patients prior to
administration of sedation. Ensure patients who undergo moderate sedation are
appropriately monitored during the procedure.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 16–19, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                              JOHN D. DAIGH, JR., M.D. 

                                                             Assistant Inspector General for 

                                                                Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                              i
                                          CAP Review of the El Paso VA Health Care System, El Paso, TX



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following five activities:

   	 QM

   	 EOC

   	 Continuity of Care

   	 Moderate Sedation

   	 Suicide Prevention Safety Plans

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
October 31, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the El Paso VA Health Care System, El Paso, Texas, Report
No. 10-01876-252, September 21, 2010).



VA OIG Office of Healthcare Inspections                                                             1
                                          CAP Review of the El Paso VA Health Care System, El Paso, TX


During this review, we presented crime awareness briefings for 177 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
124 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Audiology Patient Access Systems Redesign
In November 2012, audiology clinic staff initiated a systems redesign project to improve
patient access. At that time, 14-day access to audiology services was at 22.7 percent
for new patients and at 70.5 percent for established patients. This resulted in a delay in
care. The audiology team implemented the following improvements: (1) triaged
appointment classifications (used staff in accordance with their level of competency for
each appointment type), (2) used non-face-to-face modalities, (3) created an otoscopic
check clinic, (4) redesigned vestibular clinic profiles for hearing evaluations to allow two
unscheduled slots per provider per day for same day access, and (5) matched demand
by initiating telephone triage and follow-ups. As a result, in May 2013, there was an
increase in 14-day new patient access to 90.4 percent and in established patient access
to 93.7 percent.




VA OIG Office of Healthcare Inspections                                                             2
                                             CAP Review of the El Paso VA Health Care System, El Paso, TX



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                     Findings
       There was a senior-level committee/group
       responsible for QM/PI that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated, completed, and reported to the
       MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                3
                                               CAP Review of the El Paso VA Health Care System, El Paso, TX


NM               Areas Reviewed (continued)                                 Findings
NA     Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          re-assessed timely.
 NA    Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Work Group only met 2 times
       requirements:                                        over the past 6 months.
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                  4
                                              CAP Review of the El Paso VA Health Care System, El Paso, TX


NM              Areas Reviewed (continued)                                 Findings
NA     The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
 NA    Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in PI
       over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/PI program over the past
       12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendation

1.    We recommended that the Surgical Work Group meet monthly.




VA OIG Office of Healthcare Inspections                                                                 5
                                             CAP Review of the El Paso VA Health Care System, El Paso, TX


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the podiatry, orthopedic/urology/gastroenterology, dermatology/neurology,
endocrine/hematology/oncology/infectious disease/pulmonary, primary care, cardiology, eye,
and dental specialty clinic areas and radiology. Additionally, we reviewed relevant documents,
conversed with key employees and managers, and reviewed 10 radiology employee training
records. The table below shows the areas reviewed for this topic. Any items that did not apply
to this facility are marked NA. The facility generally met requirements. We made no
recommendations.

NM            Areas Reviewed for General EOC                              Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.



VA OIG Office of Healthcare Inspections                                                                6
                                                CAP Review of the El Paso VA Health Care System, El Paso, TX


NM      Areas Reviewed for Radiology (continued)                               Findings
       The facility had policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
 NA    MH EOC inspections were conducted every
       6 months.
 NA    Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 NA    MH unit staff, Multidisciplinary Safety
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
 NA    Locked MH unit(s) were in compliance with
       MH EOC Checklist safety requirements or an
       abatement plan was in place.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.



VA OIG Office of Healthcare Inspections                                                                   7
                                               CAP Review of the El Paso VA Health Care System, El Paso, TX



Continuity of Care
The purpose of this review was to evaluate whether clinical information from patients’
community hospitalizations at VHA expense was available to facility providers.3 Such
information is essential to coordination of care and optimal patient outcomes.

We reviewed the EHRs of 30 patients who had been hospitalized in the local community at VHA
expense during calendar year 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                    Areas Reviewed                                        Findings
       Clinical information was consistently available
       to the primary care team for the clinic visit
       subsequent to the hospitalization.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  8
                                               CAP Review of the El Paso VA Health Care System, El Paso, TX


Moderate Sedation
The purpose of this review was to determine whether the facility developed safe processes for
the provision of moderate sedation that complied with applicable requirements.4

We reviewed relevant documents, the EHRs of 10 patients who received moderate sedation,
and 7 employee training/competency records. Additionally, we conversed with key employees
and observed the timeout process. The table below shows the areas reviewed for this topic.
The areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                    Areas Reviewed                                        Findings
       Staff completed competency-based
       education/training prior to assisting with or
       providing moderate sedation.
 X     Pre-sedation documentation was complete.          None of the EHRs included documentation of
                                                          a review of the history of any previous
                                                          adverse experience with sedation.
 X     Informed consent was completed                    For six patients, the provider who performed
       appropriately and performed prior to               the procedure was not the same as the
       administration of sedation.                        provider listed on the consent form, and there
                                                          was no evidence in the EHRs that the change
                                                          in provider was discussed with and agreed to
                                                          by the patients.
       Timeouts were appropriately conducted.
 X     Monitoring during and after the procedure was     Two EHRs did not contain documentation of
       appropriate.                                       vital signs at 5-minute intervals during the
                                                          procedure or documentation of an exception
                                                          to the requirement.
       Moderate sedation patients were appropriately
       discharged.
 NA    The use of reversal agents in moderate
       sedation was monitored.
 NA    If there were unexpected events/complications
       from moderate sedation procedures, the
       numbers were reported to an
       organization-wide venue.
 NA    If there were complications from moderate
       sedation, the data was analyzed and
       benchmarked, and actions taken to address
       identified problems were implemented and
       evaluated.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  9
                                          CAP Review of the El Paso VA Health Care System, El Paso, TX



Recommendations

2. We recommended that processes be strengthened to ensure that pre-sedation assessment
documentation includes a review of the history of any previous adverse experience with
sedation and that compliance be monitored.

3. We recommended that processes be strengthened to ensure that any changes to informed
consents are discussed with and approved by the patients prior to administration of sedation
and that compliance be monitored.

4. We recommended that processes be strengthened to ensure that patients who undergo
moderate sedation are appropriately monitored during the procedure and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                            10
                                               CAP Review of the El Paso VA Health Care System, El Paso, TX


Suicide Prevention Safety Plans
The purpose of this review was to determine whether clinicians had developed safety plans that
provided strategies to mitigate or avert suicidal crises for patients assessed to be at high risk for
suicide.5

We reviewed relevant documents and conversed with key employees. We also reviewed the
EHRs of 10 patients assessed to be at high risk for suicide. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                    Areas Reviewed                                        Findings
       Patients had documented safety plans that
       specifically addressed suicidality.
       Patients/families participated in plan
       development.
       Safety plans contained all required elements.
       There was documented evidence that the
       patients and/or their families received a copy
       of the plan.
       Patient record flags were placed for high-risk
       patients.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 11
                                              CAP Review of the El Paso VA Health Care System, El Paso, TX
                                                                                              Appendix A


                 Facility Profile (El Paso/756) FY 2014 through
                                 November 2013a
Type of Organization                                                                      Secondary
Complexity Level                                                                          3-Low complexity
Affiliated/Non-Affiliated                                                                 Affiliated
Total Medical Care Budget in Millions (September 2013)                                    $111.7
Number of:
    Unique Patients                                                                      15,230
    Outpatient Visits                                                                    43,722
    Unique Employeesb                                                                    578
Type and Number of Operating Beds:
    Hospital                                                                             N/A
    Community Living Center                                                              N/A
    MH                                                                                   N/A
Average Daily Census:
    Hospital                                                                             N/A
    Community Living Center                                                              N/A
    MH                                                                                   N/A
Number of Community Based Outpatient Clinics                                              2
Location(s)/Station Number(s)                                                             Las Cruces/756GA
                                                                                          Eastside/756GB
VISN Number                                                                               18




a
    All data is for FY 2014 through November 2013 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                      12
                                                                     CAP Review of the El Paso VA Health Care System, El Paso, TX
                                                                                                                     Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       13
                                                          CAP Review of the El Paso VA Health Care System, El Paso, TX
                                                                                                          Appendix B

                                          Scatter Chart




VA OIG Office of Healthcare Inspections                                                                            14
                                                                                                          CAP Review of the El Paso VA Health Care System, El Paso, TX


                                                                         Metric Definitions
 Measure                       Definition                                                                              Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)       A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                 A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                              A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                    A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                             A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)          A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                           A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                       A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                  A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                    A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                          A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                    A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)       A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)                A higher value is better than a lower value
 PSI                           Patient safety indicator                                                                A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                        A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                          A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                 A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                    A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                   A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction               A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                  A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                 A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                     A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                          A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)              A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                              15
                                          CAP Review of the El Paso VA Health Care System, El Paso, TX
                                                                                          Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                       Memorandum


           Date:       December 13, 2013

          From:        Director, VA Southwest Health Care Network (10N18)

       Subject:        CAP Review of the El Paso VA Health Care System,
                       El Paso, TX

             To:       Director, San Diego Office of Healthcare Inspections (54SD)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed and concur with the findings and recommendations in
       the report of the Combined Assessment Program Review of the El Paso
       VA Health Care System, El Paso, Texas.

       2. If you have any questions or concerns, please contact Sally Compton,
       Executive Assistant to the Network Director, VISN 18, at 408-397-2777.




VA OIG Office of Healthcare Inspections                                                            16
                                          CAP Review of the El Paso VA Health Care System, El Paso, TX
                                                                                          Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                       Memorandum


           Date:       December 4, 2013

          From:        Director, El Paso VA Health Care System (756/00)

       Subject:        CAP Review of the El Paso VA Health Care System,
                       El Paso, TX

             To:       Director, VA Southwest Health Care Network (10N18)

       1. I have reviewed and concur with the findings and recommendations in
       the draft report of the Office of the Inspector General Combined
       Assessment Program Review conducted the week of November 4, 2013.

       2. Corrective action plans have been established, with some being
       already implemented, and target completion dates have been set for the
       remaining items as detailed in the attached report.




VA OIG Office of Healthcare Inspections                                                            17
                                          CAP Review of the El Paso VA Health Care System, El Paso, TX


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Surgical Work Group meet monthly.

Concur

Target date for completion: Completed

Facility response: The El Paso VAHCS chartered its facility-level Surgical Work Group
in September 2013. Since its inception, the work group has met and official minutes
have been recorded for September, October and November 2013. The last meeting
occurred on December 3, 2013. Future meetings are scheduled for the first Tuesday of
every month.

Recommendation 2. We recommended that processes be strengthened to ensure that
pre-sedation assessment documentation includes a review of the history of any
previous adverse experience with sedation and that compliance be monitored.

Concur

Target date for completion: December 20, 2013

Facility response: The template for the pre-sedation assessment is being revised to
include a review of the history and previous adverse sedation experience. This will be a
required entry to complete the assessment. There is currently a monthly monitoring and
trending of the moderate sedation audit data tool with monthly reporting to the VISN to
ensure compliance and sustainability. The data/findings with action plans, if needed, is
reported to the Surgery Workgroup.

Recommendation 3. We recommended that processes be strengthened to ensure that
any changes to informed consents are discussed with and approved by the patients
prior to administration of sedation and that compliance be monitored.

Concur

Target date for completion: Completed

Facility response: Surgery Staff has been instructed that any changes to informed
consents are discussed with and approved by the patient prior to administration of
sedation. This will be reiterated at monthly surgical staff meetings. There is currently a
monthly monitoring and trending of the moderate sedation audit data tool with monthly




VA OIG Office of Healthcare Inspections                                                            18
                                          CAP Review of the El Paso VA Health Care System, El Paso, TX


reporting to the VISN to ensure compliance and sustainability. The data/findings with
action plans, if needed, is reported to the Surgery Workgroup.

Recommendation 4. We recommended that processes be strengthened to ensure that
patients who undergo moderate sedation are appropriately monitored during the
procedure and that compliance be monitored.

Concur

Target date for completion: Completed

Facility response: The findings were reviewed with assigned staff on
November 12, 2013, with a follow-up completed on December 3, 2013. There is
currently a monthly monitoring and trending of the moderate sedation audit data tool
with monthly reporting to the VISN to ensure compliance and sustainability. The
data/findings with action plans, if needed, is reported to the Surgery Workgroup.




VA OIG Office of Healthcare Inspections                                                            19
                                          CAP Review of the El Paso VA Health Care System, El Paso, TX
                                                                                          Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Judy Montano, MS, Team Leader
Contributors            Josephine Biley Andrion, RN, MHA
                        Glen Pickens, RN, MHSM
                        Katrina Young, RN, MSHL
                        Jim Werner, Agent in Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Derrick Hudson
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                            20
                                          CAP Review of the El Paso VA Health Care System, El Paso, TX
                                                                                          Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Southwest Health Care Network (10N18)
Director, El Paso VA Health Care System (756/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz, Martin Heinrich, Tom Udall
U.S. House of Representatives: Pete Gallego, Beto O’Rourke, Steve Pearce


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                            21
                                               CAP Review of the El Paso VA Health Care System, El Paso, TX
                                                                                               Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 U.S. Pharmacopeia <797>, Guidebook to Pharmaceutical Compounding–Sterile Preparations, June 1, 2008.
	 10 CFR 20, Subpart F.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  The reference used for this topic was:
	 VHA Handbook 1907.01.
4
  References used for this topic included:
	 VHA Directive 1039, Ensuring Correct Surgery and Invasive Procedures, July 26, 2013.
	 VHA Directive 2006-023, Moderate Sedation by Non-Anesthesia Providers, May 1, 2006.
	 VHA Handbook 1004.01, Informed Consent for Clinical Treatments and Procedures, August 14, 2009.
5
  References used for this topic included:
	 VHA Directive 2008-036, Use of Patient Record Flags to Identify Patients at High Risk for Suicide,
   July 18, 2008.
	 Barbara Stanley and Gregory K. Brown, Safety Plan Treatment Manual to Reduce Suicide Risk: Veteran Version,
   August 20, 2008.
	 Various requirements of The Joint Commission and the VA National Center for Patient Safety.




VA OIG Office of Healthcare Inspections                                                                          22
